CERTIFICATE OF WORD COUNT
No. TBD
Robel Bing,
Petitioner,
v.
Brivo Systems, LLC,
Respondent.

rC

STATE OF MASSACHUSETTS )
COUNTY. OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of the
Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1 (h), I certify that the Robel Bing Petition for
Writ of Certiorari contains 4285 words, including the parts of the brief that are required or
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

A- _ November 27, 2020

SCP Tracking: Bing-3506 Decatur Ave-Cover White

